            Delivering the Landing Transport Dock 17
            Class of Amphibious Ships
            The Navy developed an acquisition strategy for the LPD 17 weapon
            system that implements acquisition reform principles and should reduce
            risk. Specifically, the strategy engages the warfighters in weapon
            system acquisition, compresses schedules for the development and
            production phases, reduces cost of ownership, and provides flexibility
            for delivery deviations and less-than-desired performance should needs
            arise. If the strategy is implemented as planned, the Navy should be
            able to deliver 12 LPD 17 class amphibious ships that meet
            requirements, are on time, and are within projected life cycle-costs. In
            addition, when compared with the LPD 17 Program Office Milestone II
            life-cycle cost estimate, the acquisition strategy will allow the Navy to
            retire 4 classes of ships and reduce operation and support costs for the
            LPD 17 ship class by $3.6 billion.


Acquisition Reform Guidance

     Planning and decisionmaking for the preliminary design and construction for
     the LPD 17 lead ship, San Antonio, began before DOD finalized acquisition
     reform guidance. In anticipation of the revised DOD Directive 5000.1,
     “Defense Acquisition, ” March 15, 1996, and DOD Regulation 5000.2-R,
     “Mandatory Procedures for Major Defense Acquisition Programs (MDAPs)
     and Major Automated Information System (MAIS) Acquisition Programs,”
     March 15, 1996, the Navy designed and implemented an acquisition strategy
     for the LPD 17 weapon system that addressed acquisition reform principles and
     reduced risks.


Acquisition Strategy

     The Navy designed the acquisition strategy for the LPD 17 weapon system to
     concurrently accomplish three objectives. The LPD 17 acquisition strategy:

            a  supports the warfighter with vessels that perform mission
     requirements with ease of operation and support,

            l    expedites ship deliveries without decrementing quality by improving
     the acquisition business processes, and

             l  reduces life-cycle costs by introducing and installing “state of the
     practice” applications and products that will reverse “cradle to grave” cost
     growth.



                                          4
            Delivering the Landing Transport Dock 17
            Class of Amphibious Ships
            The Navy developed an acquisition strategy for the LPD 17 weapon
            system that implements acquisition reform principles and should reduce
            risk. Specifically, the strategy engages the warfighters in weapon
            system acquisition, compresses schedules for the development and
            production phases, reduces cost of ownership, and provides flexibility
            for delivery deviations and less-than-desired performance should needs
            arise. If the strategy is implemented as planned, the Navy should be
            able to deliver 12 LPD 17 class amphibious ships that meet
            requirements, are on time, and are within projected life cycle-costs. In
            addition, when compared with the LPD 17 Program Office Milestone II
            life-cycle cost estimate, the acquisition strategy will allow the Navy to
            retire 4 classes of ships and reduce operation and support costs for the
            LPD 17 ship class by $3.6 billion.


Acquisition Reform Guidance

     Planning and decisionmaking for the preliminary design and construction for
     the LPD 17 lead ship, San Antonio, began before DOD finalized acquisition
     reform guidance. In anticipation of the revised DOD Directive 5000.1,
     “Defense Acquisition, ” March 15, 1996, and DOD Regulation 5000.2-R,
     “Mandatory Procedures for Major Defense Acquisition Programs (MDAPs)
     and Major Automated Information System (MAIS) Acquisition Programs,”
     March 15, 1996, the Navy designed and implemented an acquisition strategy
     for the LPD 17 weapon system that addressed acquisition reform principles and
     reduced risks.


Acquisition Strategy

     The Navy designed the acquisition strategy for the LPD 17 weapon system to
     concurrently accomplish three objectives. The LPD 17 acquisition strategy:

            a  supports the warfighter with vessels that perform mission
     requirements with ease of operation and support,

            l    expedites ship deliveries without decrementing quality by improving
     the acquisition business processes, and

             l  reduces life-cycle costs by introducing and installing “state of the
     practice” applications and products that will reverse “cradle to grave” cost
     growth.



                                          4
      Delivering the Landing Transport Dock 17 Class of Amphibious Ships


Supporting the Warfighter. The Navy designed the LPD 17 acquisition
strategy to continually engage, the support of the warfighter. Before and after
the San Antonio’s preliminary ship design, the Navy actively solicited
warfighters’ ideas, comments, and recommendations. The Navy established the
LPD 17 War Room, scheduled early operational assessments by the weapon
system’s testers, and placed on integrated product teams subject-matter experts
on amphibious ship operations and Marine Corps warfighting doctrine and
tactics for the LPD 17 weapon system acquisition.

        LPD 17 War Room. The LPD 17 War Room serves as an engineering
environment where warfighters, maintainers, and trainers can analyze problems
and issues and generate potential solutions. Located at the Expeditionary
Warfare Training Group Atlantic Headquarters Little Creek, Virginia, the
LPD 17 War Room is also where key action officers meet to resolve
mismatches between ship design and weapon system equipment with warfighting
doctrine and tactics. The LPD 17 War Room:

       l   displays LPD 17 prints, diagrams, and artist’s conceptions, and
accommodates large screen computerized display capability for video, modeling
simulations, and automated presentations;
        maintains documents and reference material in a library related to the
LPD lyweapon system; and

      l  sponsors conferences and workshops on topics addressing staffing;
command, control, communications, computers, and information; maintenance;
and women on the LPD 17.

The Navy conducted approximately 20 conferences, with each lasting for 2 days
and averaging attendance of 35 members per conference session. In addition,
the Navy posted workshop and conference reports and contents of the LPD 17
War Room library on the World Wide Web site.

       Early Operational Assessments. The Navy scheduled early operational
assessments by the Navy Operational Test and Evaluation Force and the Marine
Corps Office of Test, Evaluation, and Analysis. The results of the early
assessments on the preliminary designs of the San Antonio will improve the
LPD 17 weapon system’s operating and warfighting capabilities. Operational
and suitability assessments made by subject-matter experts identified the
following:

       l    potential illumination deficiencies in ship compartments,

       l   potential fueling difficulties,

          requirements for more testing to evaluate the interface effect of the
MV-22;ilt wing weapon system,

        l  potential design deficiencies limiting mess deck seating and
obstructing food service traffic flow,




                                        5
Delivering the Landing Transport Dock 17 Class of Amphibious Ships


             l  missing demineralized water station and inertial navigation cable to
      support AV-8 aircraft operations,
             l   a missing aviator storage locker for flight deck equipment,
             l   untested reliability of software for installed systems,
              l   a potential safety hazard because of a ladder placed near the port
      refueling stations, and
             l   an overstaffed bridge watchstanding team.

      The Navy and Avondale Industries have recognized the deficiencies and issues
      and are addressing them in the detail design of the LPD 17 lead ship. Further,
      Navy and Marine Corps independent testers will make a follow-on assessment at
      the conclusion of the lead-ship detail design.
              Integrated Product Teams. The Navy and Avondale Industries placed
      on integrated product teams subject-matter experts on amphibious ship
      operations and Marine Corps warfighting doctrine and tactics. The integrated
      product team members include other contractors who have developed,
      produced, and logistically supported types of systems similar to that being
      placed on the LPD 17s. The Navy program management office has a combined
      total of 774 years of amphibious shipboard experience, design, training,
      maintenance, and supply support experience. Avondale Industries has
      constructed a full range of Navy, Coast Guard, and merchant vessels, including
      the latest Dock Landing Ship number 52.

      Improving the Acquisition Business Processes. The Navy LPD 17 acquisition
      strategy will implement new acquisition reform business processes. As
      Avondale Industries considers all elements of the product life cycle from
      conception through disposal to include quality, cost, schedule, and user
      requirements, the Navy believes that it will:
             l   advance LPD 17 ship deliveries by compressing planning and
      production cycles;

              l   simplify operation and support tasks by eliminating or replacing
      subsystems and components that are complicated, unique, and manpower
      intensive; and

                  minimize operating disruptions by designing allowances and reserve
      capacit; for future replacements and technical improvements into the LPD 17
      class of ships.

      The improved business processes and expected benefits that the Navy and
      Avondale Industries believe will result from the LPD 17 weapon system
      acquisition are as follows.




                                           6
      Delivering the Landing Transport Dock 17 Class of Amphibious Ships


        Integrated Product and Process Development Concept. The Navy
and Avondale Industries are designing, producing, and planning to logistically
support the LPD 17 weapon system acquisition following the integrated product
and process development (IPPD) concept. They jointly formed multi-
disciplinary product and cross-product teams to design, construct, and integrate
the lead ship acquisition. Product teams exist for machinery, hull,
accommodations, topside, distributed systems, integrated ship electronics, and
mission. Cross-product teams exist for program management, total ship
engineering, ownership, cost engineering, combined test, and integrated product
data environment.

The IPPD concept will expedite weapon system deliveries by using concurrent
engineering during development and production to streamline the process,
minimize rework, and eliminate poor concepts. For example, the National
Shipbuilding Research Program users’ guide, “Concurrent Engineering - Primer
and User’s Guide for Shipbuilding, ” January 1995, states that development time
can be reduced by as much as 70 percent, engineering changes by as much as
90 percent, and time to market by as much as 90 percent in some industries
when they implement the IPPD concepts. Further, because the Navy actively
participates in the process, contractor time and resources formerly dedicated to
preparing and presenting program reviews and contract data requirements can be
reduced or eliminated.

       People Empowerment. The Navy and Avondale Industries IPPD
concept empowered the LPD 17 product and cross-product teams to make
decisions. Product and cross-product team charters make participating members
responsible for all aspects of their products. The Navy and Avondale Industries
accomplished the decisionmaking shift with formal training, IPPD facilitators,
and appropriate guidance. Further, collocating Navy and Avondale Industries’
team members in the same work area will save time by resolving issues on the
spot without elevating them through their respective functional chains of
command for resolution and approval. Savings can range from a few days to
weeks depending on the substance of unresolved issues.

        Integrated Product Data Environment. Avondale Industries is
maintaining all data relevant to the LPD 17 weapon system in an integrated
product data environment. The integrated product data environment
architecture integrates a central 3-D ship product model with associated data
products for designs, production milestones and schedules, technical manuals,
configuration management documents, and life-cycle logistics support for
electronic retrieval by interested users. The integrated product data
environment database includes vendors’ drawings and other technical
information related to weapon system acquisition and its support. Should
modifications occur as data are placed in the system, links within the system
make changes to other stored data. The linkage capability avoids false starts
and maintains communication and continuity throughout the acquisition process
for all the affected acquisition IPPD teams. The integrated product data
environment architecture for the product data management system uses
commercially available components and allows flexibility for data use with
evolved software applications. Further, the Navy uses a similar product data
management system for its own applications.



                                     7
Delivering the Landing Transport Dock 17 Class of Amphibious Ships


              Integrated Management Plan and Master Integrated Resource and
      Work Schedule. The Integrated Management Plan prepared by Avondale
      Industries defines how Avondale Industries will manage concurrent and
      interactive efforts affecting the LPD 17 lead-ship detail design and its system
      integration, construction, testing, and logistics and life-cycle support. As a
      component of the Integrated Management Plan, the Master Integrated Resource
      and Work Schedule identifies key events to support contract milestones and
      identifies critical paths to achieve exit criteria. As a management tool, the
      Integrated Management Plan and the Master Integrated Resource and Work
      Schedule combined with the cost/schedule control system criteria provide the
      Navy with baselines to measure and evaluate Avondale Industries’ development
      and production progress and efficiency for the LPD 17 lead ship, Sun Antonio.

              Incentives. The Navy LPD 17 lead-ship contract will encourage and
      reward Avondale Industries for superior effort. By placing options and award
      fees in the contract, the Navy hopes to establish and maintain a long-term
      relationship with Avondale Industries as its full-service contractor for the
      LPD 17 class of ships.

                      Options. To become the full-service contractor of the Navy for
      the LPD 17 class of ships, Avondale Industries must demonstrate that it can
      deliver ships on time and within estimated costs, and within or below estimated
      life-cycle costs. By using the modeling and metrics in the integrated product
      data environment and Integrated Management Plan to measure its effectiveness,
      Avondale Industries will demonstrate to the Navy that it can obtain planned
      schedule and life-cycle-cost objectives. By driving down production labor and
      material costs and operating and support costs for the LPD 17 weapon system,
      Avondale Industries expects to reduce life-cycle costs by more than 25 percent.
                      Award Fees. Avondale Industries can earn up to $64 million in
      award fees for its performance on the LPD 17 lead-ship contract. To earn the
      total of all award fees, Avondale Industries has to demonstrate exceptional
      management performance, technical performance, construction performance,
      cost performance, and cost-of-ownership-reduction performance. Further, all
      unearned award fees for evaluation periods will be carried over to a final award
      fee pool. However, to earn the final award fee, Avondale Industries has to
      demonstrate to the Navy within 2 years after the guaranty period ends that the
      first LPD 17 ship performs within required mission effectiveness operating
      parameters and predicted life-cycle operation and support costs. The final fee
      could amount to as much $10 million per ship.

              Eliminating Military Specifications and Standards. The Navy request
      for proposal for the LPD 17 lead ship eliminated 569 military standard and
      specification requirements. By substituting performance specifications for
      standard design and production requirements, the Navy reduced more than
      60 percent of the requirements in the initial LPD 17 request for proposal. In
      addition, the Navy has minimized contract data requirement deliverables.
      Requested data will be in the integrated product data environment and can be
      formatted without placing undue administrative burdens on Avondale Industries.
      In addition, submitted data will be provided in digital format rather than on
      paper, so the Navy expects to eliminate more than 600 paper documents.


                                          8
      Delivering the Landing Transport Dock 17 Class of Amphibious Ships


       Commercial Applications. The Navy modified the performance
requirements for the LPD 17 lead-ship contract to reasonably accommodate
nondevelopmental and commercial applications, including off-the-shelf items,
components, specifications, standards, processes, and technology to include
open-system architecture for the LPD 17 shipboard wide area network proposec
by Avondale Industries. With open-system architecture, the Navy and
Avondale Industries can capitalize on market-driven technology advancements
as well as benefit from many sources of supply.

The “Smart Ship” shipboard systems demonstrated aboard the USS Yorktown
will also be considered by Avondale Industries for the LPD 17 class of ships.
In addition, the Navy plans to reduce the number of Government-furnished
equipment items provided to Avondale Industries for the LPD 17 weapon
system acquisition. The shift in responsibility for items such as engines, drive
shafts, propellers, distillation plants, pumps, navigation sensors, ship control,
and internal ship communications will allow Avondale Industries to negotiate
favorable commercial prices with suppliers. Further, the shift to
contractor-furnished equipment will reduce the number of DOD and Navy
organizations that have to become involved with the LPD 17 weapon system
acquisition throughout its life cycle.

        Equipment Standardization. The Navy request for proposal for the
LPD 17 lead ship emphasized equipment standardization. Trying to reduce life-
cycle operation and support costs for the LPD 17 class of ships, the Navy
requested examples where commonality can be applied. In its proposal
submission, Avondale Industries combined requirements for three pumps into
one pump as a beneficial example of reducing life-cycle operations and
maintenance costs. Reducing the number of items for the same requirements
will reduce LPD 17 weapon system life-cycle costs through economies of scale
and will limit the number of line items requiring logistics support.

        Testing. The Navy plans to use computer-aided design modeling and
virtual reality simulation for the LPD 17 lead ship to unobtrusively test
Avondale Industries’ detail designs for form, fit, and function. Unobtrusive
testing prevents defects before they appear by reviewing process controls instead
of inspecting finished products. Further, unobtrusive testing reduces rework
and the additional time required to redo the failed systems, items, or
components. Besides testing for detail design form, fit, and function, the Navy
will make early operational assessments and conduct live-fire testing,
evaluations, and vulnerability assessments.

        Maintainability. Avondale Industries is exploring condition, sensor,
and infrared imaging systems for extending the reliability, availability, and
maintainability of the LPD 17 class of ships. Although those integrated
condition assessment systems may initially increase ship class costs, cost-as-an-
independent-variable investment decisions for built-in diagnostic and condition-
based monitoring for diesel engines, diesel generators, machinery control
systems, air compressors, air conditioning plants, and reverse osmosis
desalination plants will beneficially reduce ship-class ownership costs.




                                       9
Delivering the Landing Transport Dock 17 Class of Amphibious Ships

      In addition, the LPD 17 weapon system will use low-maintenance titanium
      instead of copper nickel piping for fire mains and auxiliary sea water cooling,
      coatings for ballast tanks, all-electric auxiliaries instead of steam auxiliaries,
      anti-foul hull coatings, deck coverings, and fiber optic lighting. The Navy
      expects to reduce operation and support costs for each LPD 17 class of ship by
      $500,000 per year with those monitoring systems and equipment enhancements.
              Training. The Navy brought the training community into the LPD 17
      lead-ship design process early on to become familiar with ship operations and
      defense systems. As a result, it can concurrently influence designs to make the
      LPD 17 class of ships user friendly to crew members, embarked Marines, and
      maintainers, and it can start developing training programs before ship
      construction is completed.

      The Navy will reduce training time and costs for the LPD 17 weapon system
      wherever possible by using interactive electronic training applications.
      Combined with integrated condition assessment systems, the training
      applications will reduce the number of courses taught and the number of
      training days dedicated to each training course. The Navy believes that
      integrated condition assessment systems and interactive electronic training
      applications can reduce ship-class staffing by 10 people.

      Reducing Weapon System Life-Cycle Costs. The Navy built the LPD 17
      acquisition strategy following the “Design for Ownership” concept. To be
      effective, the Navy and Avondale Industries consider the life-cycle cost impact
      of each decision before completing the weapon system’s detailed design. The
      decisions determine the best value and application of “state of the practice”
      products, ownership cost-reduction goals, and subsequent logistics support over
      the weapon system’s life cycle. Specifically, Avondale Industries will:

             l    leverage existing research and development and monitor other
      relevant research and development for innovative technology to reduce the
      LPD 17 weapon system life-cycle costs,

              l   reduce life-cycle training costs through an on-board, embedded
      training system that employs advanced instructional technology,
             a   stretch the interval between docking,
             0   reduce time allocated for intermediate and shipyard maintenance,

             l   propose manpower doctrine changes and manpower reducing
      technology,
             0   reduce interim supply support by tailoring inventory procedures,

             l   craft a single mechanism for configuration management,




                                          10
          Delivering the Landing Transport Dock 17 Class of Amphibious Ships


           l  support the primary amphibious warfare mission by ensuring that
    embarked landing forces, support equipment, and vehicles can move rapidly
    from any LPD 17 class of ship to its military objective on the shore, and

           l   avoid adverse environmental effects and personnel hazards by
    screening all materials, choosing alternatives to hazardous materials, and using
    problem materials only when substitutions are not available.

    In its request for proposal submission, Avondale Industries identified more than
    40 cost-reduction strategies to reduce life-cycle costs. Appendix C lists 24 of
    those strategies.


Management Flexibility

    The Navy does not plan to use multi-year funding for the LPD 17 weapon
    system acquisition. As a result, budget decisions to accommodate other
    priorities may delay ship deliveries and may later increase weapon system costs.
    In addition, the LPD 17 class of ships will be designed with fiber-optic
    shipboard wide area networks to link almost every bit of data on the vessels.
    Integrating information from self-defense systems; bridge functions; machinery
    controls and administrative functions; and command, control, communications,
    and intelligence systems will be a software challenge for Avondale Industries.
    Although the Navy has identified software integration as a moderate risk,
    underestimating the extent of the software integration challenge could result in
    ships not meeting desired performance requirements. As a result, software
    revision and block enhancements may be required by the Navy to mature the
    delivered LPD 17 weapon system software. However, the Shipbuilding and
    Conversion Navy appropriation reprogramming procedures and the acquisition
    strategy provide the LPD 17 acquisition management team with the flexibility to
    recover from delivery deviations and less-than-desired performance should the
    need arise. By including a warship developer and a command, control,
    communications, computer, and information integrator in the IPPD teaming
    process, and by complying with DOD budgetary guidance, the Navy hopes to
    abate the risk of delayed deliveries and increased life-cycle costs for the LPD 17
    weapon system acquisition.

    Deliveries. The Navy plans to construct the LPD 17 class of ships at two
    shipyards to maintain scheduled delivery dates. Eight ships will be constructed
    at Avondale Industries, and four ships will be constructed at Bath Iron Works.
    Although the decision will affect ship construction costs because of labor and
    overhead rate differentials and learning reduction, the availability of the
    shipyards does minimize delivery disruptions by providing the additional
    capacity for constructing vessels when scheduled start dates deviate from
    planned baselines. Further, maintaining on-time deliveries of 12 ships allows
    the Navy to retire 4 classes of ships and to avoid penalties for operating and
    supporting vessels beyond their planned lives.




                                          11
Delivering the Landing Transport Dock 17 Class of Amphibious Ships

      Life-Cycle Costs. The Navy determined life-cycle costs for the LPD 17
      weapon system by using comparative actual costs and parametric measurements.
      For the software development, integration, and testing functions, the Navy
      applied parametric measurements to derive cost estimates. Further, the DOD
      Cost Analysis Improvement Group found the estimates to be realistic. Avondale
      Industries also abated risks for software development, integration, and testing
      when they allied themselves with Hughes Aircraft Company for the command,
      control, communications, computer, and information segments of the LPD 17
      acquisition.

      In addition, the Navy believes that it can manage development and production
      and operation and support costs for the LPD 17 weapon system acquisition more
      efficiently by applying electronic and computer enhancements. The Navy
      estimates that by extending reliability, availability, and maintainability
      performance parameters and implementing improved life-cycle support
      processes for the LPD 17 class of ships over their 40-year planned lives, it will
      reduce operation and support costs by $3.6 billion when compared with the
      Milestone II life-cycle cost estimate prepared by the LPD 17 Program Office.

Management Comments

      The Assistant Secretary of the Navy (Research, Development, and Acquisition)
      concurred with the report’s results. We made editorial and clarification changes
      based on suggestions he provided, which did not change the audit results.
      Therefore, the full text of his comments are not included in the final report.
      Part III contains his memorandum.




                                          12
Part II - Additional Information
Appendix A. Audit Process

Scope

    We conducted this program results audit from June through November 1997 in
    accordance with auditing standards issued by the Comptroller General of the
    United States, as implemented by the Inspector General, DOD. We reviewed
    acquisition documents, dating from June 1992 through October 1997, covering
    program definition, program design, contracting, program assessments and
    decision reviews, and periodic reporting. We interviewed and obtained
    program documentation from officials in the Office of the Secretary of Defense
    and the Navy who were involved with the LPD 17 weapon system acquisition
    program. We also included tests of management controls as considered
    necessary.


Methodology

    The audit was performed in accordance with Inspector General, DOD, critical
    program management elements approach. We reviewed program definition,
    program structure, program design, contracting, program assessments and
    decision reviews, periodic reporting, and management controls related to those
    objectives. We did not rely on computer-processed data or statistical sampling
    procedures to develop conclusions on this audit.

    At the beginning of the audit, the LPD 17 weapon system acquisition was early
    in the engineering and manufacturing development phase. The Navy Program
    Office and Avondale Industries were solidifying the IPPD teams for the detailed
    design and subsequent construction of the LPD 17 lead-ship. The Navy
    acquisition strategy for the weapon system supports the warfighter, improves
    acquisition business processes, and reduces life-cycle costs, which are major
    acquisition reform issues.

    Because the program had no key developments or engineering and
    manufacturing accomplishments at the time of the review, we were unable to
    determine whether the Navy acquisition of the LPD 17 weapon system will be
    cost-effectively developed for production and deployment in accordance with its
    planned acquisition strategy.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DOD and Avondale Industries, New Orleans,
    Louisiana. Further details are available on request.




                                       14
                                                      ADDendix A. Audit Process


Management Control Program

    Requirement for Management Control Review. DOD Directive 50 10.3 8,
    “Management Control (MC) Program,” August 26, 1996, requires DOD
    managers to implement a comprehensive system of management controls that
    provides reasonable assurance that programs are operating as intended and to
    evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. In accordance with
    DOD Directive 5000.1, “Defense Acquisition, ” March 15, 1996, and DOD
    Regulation 5000.2-R, “Mandatory Procedures for Major Defense Acquisition
    Programs (MDAPs) and Major Automated Information System (MAIS)
    Acquisition Programs, ” March 15, 1996, acquisition managers are to use
    program cost, schedule, and performance parameters as control objectives to
    implement the DOD Directive 5010.38 requirements. Accordingly, we limited
    our review to management controls directly related to the critical program
    management elements of the acquisition programs reviewed.

    Adequacy of Management Controls. Management controls were adequate in
    that we did not identify any systemic management control weakness applicable
    to our primary audit objective.




                                       15
Appendix B. Summary of Prior Coverage
    During the last 5 years, the General Accounting Office; the Office of the
    Inspector General, DOD; and the Naval Audit Service have issued four reports
    covering issues related to this audit.


General Accounting Office

    Report No. GAO/NSIAD-97-195R (OSD [Office of the Secretary of Defense]
    Case No. 1431), “Ship Self-Defense: Program Priorities Are Questionable,”
    August 15, 1997, reports that Congress may be relying on inaccurate
    information when it evaluates the Ship Self-Defense Program’s progress and
    when it formulates future financial investments in shipboard antiwar warfare
    defense capabilities. Additionally, because the Program Executive Office for
    Theater Air Defense has reported inaccurate information and provided
    inadequate financial data, it may not be exercising the oversight necessary to
    accomplish established program objectives and priorities. The report made no
    recommendations; however, the report asked the Secretary of Defense to
    respond to the question, “How do current naval threat priorities relate to
    decisions on which ships will receive the Ship Self-Defense System Mark l/
    Quick Reaction Combat Capability?” The Office of the Under Secretary
    Defense for Acquisition and Technology responded by stating that mission
    profile and operational scenario priorities determined when ship self-defense
    systems would be installed. Because amphibious ships are employed where
    immediate conflicts are not expected or after carrier battle groups have
    established dominance, the Navy decided that ship self-defense systems would
    be installed on combatant ships before they were installed on amphibious ships.


    Report No. GAO/NSIAD-96-47 (OSD Case No. 1053), “Marine Corps:
    Improving Amphibious Capability Would Require Larger Share of Budget Than
    Previously Provided, ” February 13, 1996, reports on the current status of the
    Navy and Marine Corps capability to conduct amphibious assaults; planned
    improvements being made to the capability; costs of planned improvements; and
    their effect on future years’ budgets. The General Accounting Office concludes
    that a funding shortfall of $16 billion will occur from FY 2002 through
    FY 2005 as a result of planned improvements. The report made no
    recommendations.




                                       16
                                         Appendix B. Summary of Prior Coverage


Inspector General, DOD

    Inspector General, DOD, Report No. 97-005, “Acquisition of Ship Self-Defense
    Systems,” October 15, 1996, reports that the Navy:
       l   calculated excessive requirements for ship self-defense system missiles;
       l   made a questionable determination of cost-effectiveness for the Mark-l
    Ship Self-Defense System;
       l   did not realistically justify the need for the Mark-l Ship Self-Defense
    System on amphibious class ships, based on past war-fighting scenarios;
         l  may duplicate the combined capabilities of existing combat systems with
    its surface mode improvement to the Block I Phalanx close-in weapon system;
    and
        l   duplicated the capabilities of the Block I Rolling Airframe Missile with
    its planned upgrade for the Evolved Sea Sparrow RIM-7P missiles.

    The Inspector General recommended that the Navy:
       l   cancel the Sea Sparrow RIM-7R Missile program and the Block 1
    Phalanx close-in weapon system upgrades, and
           adjust the requirements and acquisition objectives for the Evolved Sea
    Spa:row and Rolling Airframe Missiles and replace the Mark-l Ship
    Self-Defense System with an alerted passive overlay system.

    The Navy nonconcurred with the report recommendations. However, during
    the audit mediation process, the Navy eliminated funding for the Evolved Sea
    Sparrow RIM-7R Missile program and the Block 1 Phalanx close-in weapon
    system upgrades as well as reduced funding for the Evolved Sea Sparrow and
    Rolling Airframe Missiles and the Mark-l Ship Self-Defense System.


Naval Audit Service

    Naval Audit Service Report No. 071-95, “Navy Amphibious Fleet
    Requirements, ” September 29, 1995, reports that because of fiscal constraints,
    the possible Navy amphibious fleet of 35 ships may not be the best mix for the
    forward presence and crisis response missions. The report recommended that
    the Navy:
       l   reduce LPD 17 requirements from 12 ships to 10 ships and direct funds
    towards the purchase of Large Amphibious/Helicopter Carrier number 7;
       l    cancel contracts for excessive landing craft air cushion craft, or, if not
    possible, deactivate them instead of placing them in reduced operational status;




                                         17
Appendix B. Summary of Prior Coverage


         0    reduce the number of landing craft air cushion craft crews dedicated to
      training; and
              reduce the number of landing craft air cushion craft in operational status
      beciuse the construction of amphibious ships has not kept pace with landing
      craft air cushion craft acquisitions.

      The Navy concurred with the recommendations addressing landing craft air
      cushion craft. The Navy nonconcurred with the recommendation for funding
      the Large Amphibious/Helicopter Carrier number 7 by reducing the LPD 17
      from 12 ships to 10 ships. Congress subsequently funded the Large
      Amphibious/Helicopter Carrier number 7 with the FY 1996 Defense
      Appropriation Act.




                                          18
Appendix C. Cost-Reduction Strategies
   The following table describes the cost-reduction strategies that Avondale
   Industries plans to apply when it develops and produces the LPD 17 weapon
   system.

            Program Activity                         Strategy
   Detail design                            Use virtual prototyping.
                                            Identify Government-furnished equipment that does
                                            not meet open system architecture standards as
                                            candidates for commercial-off-the-shelf or
                                            nondevelopmental product options.
                                            Exploit technology as a cost-reduction enabler.

   Total ship system integration            Use simulation software to validate shipboard wide
                                            area network maintenance engineering analysis
                                            results.

   Hardware and software development        Use open architecture, commercial-off-the-shelf-
      for contractor-furnished equipment    based solutions.

   Integration of contractor-furnished      Incorporate associate contractor agreements into
       equipment and Government-furnished   integrated process teams to reduce hardware and
       equipment                            software incompatibility risks.

   Contractor-furnished equipment           Make supportability considerations the primary
                                            selection criteria.
                                            Enlist suppliers in life-cycle reduction effort.

   Construction                             Use the IPPD concept and the integrated product
                                            development environment to reduce costs.
                                            Review construction practices to support life-cycle
                                            goals.
                                            Review virtual prototyping to support critical design
                                            walk-through applications.

    Contractor-furnished equipment          Review virtual prototyping to establish a design and
       installation                         installation approach to reduce life-cycle costs.
                                            Apply maximum standard modular installation
                                            modules for ease of upgrade.




                                            19
Appendix C. Cost-Reduction Strategies


              Program Activity                  Strategy

      Test and evaluation               Use virtual prototyping to perform system test and
                                        evaluation validation and verify design performance
                                        before shipboard tests.
                                        Validate requirements early, structure validations of
                                        rigorous requirements to be traceable.
                                        Tailor test program to facilitate technology
                                        insertion.

      Integrated logistics support      Accomplish integrated logistics support concurrently
                                        with design and construction.
                                        Define supportability as key program attribute.
                                        Evaluate innovative support concepts along with
                                        design alternatives for life-cycle cost reduction.
                                        Investigate just-in-time support for commercial
                                        off-the-shelf and nondevelopmental items and with
                                        associate contractor agreements for
                                        Government-furnished equipment.

      Life-Cycle support planning       Emphasize flexibility, responsiveness to changing
                                        environment.
                                        Maintain continuous, condition-based maintenance
                                        to increase dry-docking intervals.
                                        Maintain continuity of team from early design on
                                        common work areas.
                                        Investigate interfacing LPD 17 integrated product
                                        data environment with Navy maintenance systems
                                        and shipyard industrial management programs.




                                        20
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Auditor General, Department of the Navy
Program Executive Officer, Carriers, Littoral Warfare and Auxiliary Ships
Program Manager, LPD 17 Amphibious Transport Dock Ship Program Office


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency



Non-Defense Organizations
Office of Management and Budget


                                          21
Appendix D. Report Distribution


Technical Information Center, National Security and International Affairs Division,
  General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:
   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
     Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                           22
Part III - Management Comments
Assistant Secretary of the Navy (Research,
Development, and Acquisition) Comments

                               DEPARTMENT OF THE NAVY
                             OFflCE OF THE ASSISTANT SECRETARY
                           RESEARCH, DEVELOPMENT AND ACQUISITION
                                     1000 NAVY PENTAQON
                                  WASHINGTON DC 203u)-1000




      MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL
                       (OAIG/AUD/AM)

      SUBJECT:   Audit Report On Acquisition of the Amphibious Landing
                 Transport Dock 17 Class of Ships (Project No. 7AL-3009)
                 - ACTION MEMORANDUM

           The Navy appreciates the opportunity to review the draft
      audit report forwarded on December 29, 1997, and concurs with it.
      Specific comments to the report were provided under separate
      cover.

           In addition, I would like to commend the members of the
      audit team for their willingness to accommodate schedules with
      the Program Executive Officer for Carriers, Littoral Warfare and
      Auxiliary Ships throughout the conduct of this audit.




                                         RADM,cs/C, USN
                                         Principal Deputy




                                          24
Audit Team Members

This Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.

Thomas F. Gimble
Patricia A. Brannin
Brian M. Flynn
David M. Wyte
Donald Stockton
Bradley M. Heller
Robert R. Johnson
Walter S. Bohinski
Wendy Stevenson
